A P PA L A C H I A N R E G I O N A L C O M M I S S I O N


      Inspector General’s
 Semiannual Report to Congress
     October 1, 2006–March 31, 2007
April 2007



MEMORANDUM FOR               THE FEDERAL CO-CHAIR

SUBJECT:                      Semiannual Report to Congress


In accordance with the requirements of the Inspector General Act Amendments of 1988, Public Law
100-504, I am pleased to submit the Office of Inspector General Semiannual Report to Congress.

This Semiannual Report to Congress summarizes the activities of our office for the 6-month period
ending March 31, 2007. During this Semiannual period we issued three reports to the Appalachian
Regional Commission. During period, the Inspector General continued to serve as representative of
the Executive Council on Integrity and Efficiency.

The Inspector General Act of 1978, as amended by the Inspector General Act Amendments of 1988,
provides that this report be forwarded to appropriate Congressional committees within 30 days and
that you provide whatever additional comments you consider appropriate.

I appreciate the Commission’s and your offices’ cooperation with the Office of Inspector General in
the conduct of our operations.




Clifford H. Jennings
Inspector General

Enclosure
                                                   TABLE OF CONTENTS


                                                                                                                                           Page

         Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

         Purpose and Requirements of the OIG Semiannual Report . . . . . . . . . . . . . . . . . . . iii

  I.     Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

 II.     Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

         Appalachian Regional Commission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

         Office of Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

 III.    OIG Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

         Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

         Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


  IV. OIG Hotline . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

 V.      Legislative & Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


Appendices          A.          Schedule of Audit Reports Issued,
                                October 1, 2006, through March 31, 2007

                    B.          Schedule of Audit Reports with Questioned or Unsupported Costs

                    C.          Schedule of Audit Reports with Recommendations that Funds be put
                                to Better Use

                    D.          Definition of Terms Used
                                  EXECUTIVE SUMMARY


During this reporting period, the Office of Inspector General (OIG) issued 3 reports to the
Appalachian Regional Commission. Audit recommendations were directed at internal financial
management and internal control issues.

The lower than normal production of final reports this reporting period was caused by delaying
the start of many efforts awaiting full year funding. Many of previous period audits were billed
this period causing unwillingness to obligate further funding for new efforts. Currently there are
multiple reports in draft comment phase.

A change in audit reporting procedures is successfully bringing more oversight to grants by the
program managers. Upcoming work is focusing on telecommunications and the J-1 visa waiver
program. A comprehensive audit guide is being developed for use in performing J-1 visa waiver
programs audit now and in the future. The J-1 Visa Waiver program provides a waiver of
requirements for a foreign physician to return to his/her home country after completion of
medical training in the United States. ARC participates as a Federal Entity sponsor to assist
Appalachian communities in providing healthcare services to medically underserved areas. The
applicable ARC policies and procedures require J-1 physicians to practice 40 hours of primary
care per week in a designated Health Profession Shortage Area (HPSA) in the Appalachian
Region and serve at least 3 years (unless a State has a longer period). There is no prohibition on
J-1 physicians working extra hours or practicing subspecialties after fulfilling primary care
requirements.


During the reporting period, the IG served on the Executive Council on Integrity and Efficiency.




                                                ii
                         PURPOSE AND REQUIREMENTS OF THE
                  OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT

The Inspector General Act of 1978 requires the IG to keep the Federal Co-Chair and Congress
fully and currently informed about problems and deficiencies in the Commission's operations
and the necessity for corrective action. In addition, the Act specifies that semiannual reports will
be provided to the Federal Co-Chair by April 30 and October 31 and to Congress 30 days later.

The Federal Co-Chair may transmit comments to Congress along with the report but may not
change any part of the report. The specific requirements prescribed in the Act, as amended
(Public Law 100-504), are listed below.

                                             Reporting Requirements
Section 4(a)(2)              Review of legislation and regulations                                            Page 7

Section 5(a)(1)              Problems, abuses, and deficiencies                                               Page 6

Section 5(a)(2)              Recommendations with respect to problems, abuses, and                            Page 6
                             deficiencies

Section 5(a)(3)              Prior significant recommendations not yet implemented                            *

Section 5(a)(4)              Matters referred to prospective authorities                                      *

Section 5(a)(5) and          Summary of instances where information was refused                               *
6(b)(2)

Section 5(a)(6)              Listing of audit reports showing number of reports and dollar                    App A
                             value of questioned costs

Section 5(a)(7)              Summary of each particularly significant report                                  **

Section 5(a)(8)              Statistical table showing number of reports and dollar value of                  App B
                             questioned costs

Section 5(a)(9)              Statistical table showing number of reports and dollar value of                  App C
                             recommendations that funds be put to better use

Section 5(a)(10)             Summary of each audit issued before this reporting period for                    *
                             which no management decision was made by end of the reporting
                             period

Section 5(a)(11)             Significant revised management decisions                                         *

Section 5(a)(12)             Significant management decisions with which the Inspector                        *
                             General disagrees



*       None.

**      See     references   to   Sections   5(a)(1)   and    5(a)(2)   for   discussion   of   significant       reports


                                                        iii
I.       INTRODUCTION

The Inspector General Act Amendments of 1988 (P.L. 100-504) provided for the establishment of an
Office of Inspector General (OIG) at 30 designated Federal entities, including the ARC. The ARC OIG
became operational on October 1, 1989, with the appointment of an IG and provision of budgetary
authority for contracted audit and/or investigation activities.


II.      BACKGROUND

         A.     APPALACHIAN REGIONAL COMMISSION

The Appalachian Regional Development Act of 1965 (P.L. 89-4) established the Appalachian Regional
Commission. The Act authorizes a Federal/State partnership designed to promote long-term economic
development on a coordinated regional basis in the 13 Appalachian States. The Commission represents
a unique experiment in partnership among the Federal, State, and local levels of Government and
between the public and private sectors. It is composed of the Governors of the 13 Appalachian States
and a Federal representative who is appointed by the President. The Federal representative serves as the
Federal Co-Chair with the Governors electing one of their numbers to serve as the States' Co-Chair.

     -   Through joint planning and development of regional priorities, ARC funds are used to assist and
         encourage other public and private resources to address Appalachia's unique needs. Program
         direction and policy are established by the Commission (ARC Code) by the vote of a majority of
         the State members and the affirmative vote of the Federal Co-Chair. Emphasis has been placed
         on highways, infrastructure development, business enterprise, and human resources programs.

     -   Administratively, the Office of the Federal Co-Chair, with a staff of 11, and the Commission,
         with a staff of 48, is responsible for ARC operations. The States maintain an Office of States'
         Representative (2 persons) that has primarily liaison responsibilities. All personnel are located in
         Washington, DC. The Commission staff's administrative expenses, including salaries, are
         funded jointly by Federal and State funds; the States' Representative staff is funded entirely by
         the States; and the Federal Office staff is funded entirely from Federal funds.

     -   The Commission's appropriation for FY 2007 is $8,403 million. ARC was fully reauthorized by
         Congress in FY 1999, for the first time since 1982, and reauthorized in March 2002. In
         addition, Section 1101 of the Safe, Accountable, Flexible, and Efficient Transportation Equity
         Act: A Legacy for Users (SAFETEA-LU) provides annual authorizations of $470 million for
         construction of the Appalachian Development Highway System (ADHS), under Section 201 of
         the 1965 Appalachian Regional Development Act, for a total of $2.35 billion over the five-year
         period, FY 2005 through FY 2009, from the Highway Trust Fund. Although these funds are
         derived from the Highway Trust Fund they remain under ARC's programmatic jurisdiction.




                                                      1
    Program funds are distributed to State and local entities in line with an allocation formula
    intended to provide fair and reasonable distribution of available resources. ARC staff has
    responsibilities for program development, policy analysis and review, grant development,
    technical assistance to States, and management and oversight.

-   In order to avail itself of Federal agency expertise and administrative capability in certain areas,
    the ARC often relies on other departments and agencies for program administration, especially
    with respect to highways and infrastructure projects. For example, the Appalachian Regional
    Development Act authorizes the Secretary of Transportation to administer the Commission's
    highway programs. Under this arrangement, the Commission retains responsibility for priorities,
    highway locations, and fund allocations.

                         ARC ORGANIZATION CHART




                                                 2
3
4
               B.     OFFICE OF INSPECTOR GENERAL

The ARC OIG is an independent audit and investigative unit. An independent Inspector General who
reports directly to the Federal Co-Chair heads the OIG.

               Role and Authority

The Inspector General Act of 1978 (P.L. 95-452), as amended in 1988, states that the IG is responsible
for (1) audits and investigations; (2) review of legislation; and (3) recommendation of policies for the
purpose of promoting economy and efficiency in the administration of, or preventing and detecting fraud
and abuse in, the program and operations of the establishment. In this regard, the IG is responsible for
keeping the Federal Co-Chair and Congress fully informed about the problems and deficiencies in ARC
programs and operations and the need for corrective action. The IG has authority to inquire into all
ARC programs and activities that are federally funded. The inquiries may be in the form of audits,
surveys, investigations, personnel security checks, or other appropriate methods. The two primary
purposes of these inquiries are (1) to assist all levels of ARC management by identifying and reporting
problem areas, weaknesses, or deficiencies in procedures, policies, program implementation, and
employee conduct and (2) to recommend appropriate corrective actions.

               Relationship to Other Principal ARC Offices

The States’ and Federal Co-Chairs, acting together as the Commission, establish policies for ARC's
programs and its administration. These policies are codified in the ARC Code and implemented by the
Commission staff, which is responsible for monitoring project performance and providing technical
assistance as needed. The Federal Co-Chair, as the Federal fiscal officer, is responsible for the proper
use and protection of Federal funds, for ensuring compliance with applicable Federal laws and
regulations, and for taking appropriate action on conditions needing improvement, including those
reported by the OIG. The operations of the OIG neither replace established lines of operating authority
nor eliminate the need for the Commission offices to take reasonable measures to protect and enhance
the integrity and effectiveness of their operations. All Commission offices are responsible for
monitoring and evaluating the programs entrusted to them and reporting information or incidences
needing further audit and/or investigation to the IG.

               Funding and Staffing

The OIG funding level for FY 2007 is $472,000 after the $5000 rescission. For FY 2007, approximately
44 percent will be used for contract audit services; 46 percent, for salaries and benefits; 2 percent, for
travel; and 8 percent, for all other activities (training, equipment, space, supplies, etc.). There will be
some additional expenses as we modernize some equipment to coincide with an office move to another
location within the building. Some additional security will also be purchased as we will now be co-
located with the rest of the commission staff.

Staffing consists of the Inspector General, an auditor, and a confidential assistant. Grant review
activities continue to emphasize use of contracted services (e.g., independent public accounting firms or
other OIG offices) supplemented by programmatic and performance reviews directed by OIG staff.
Investigative assistance has been provided by other OIG offices on an as-needed basis through
memoranda of understanding. This approach has been deemed the most appropriate to date in view of



                                                    5
the nature of ARC operations and limited resources. Currently the Department of Homeland Security
(DHS) OIG is conducting a computer security review of ARC operations at our request.

III.   OIG ACTIVITY

       A.      AUDITS

During the reporting period, three reports were issued dealing with financial and internal controls. Other
ongoing reviews are in their final stages. The division of OIG resources results in audit work being
performed by a combination of permanent and contractor’s staff.

Revolving Loan Funds (RLF)

Five RLF audits were conducted during the previous reporting period covering a total of $1,562,000 of
ARC funds. ARC currently has a total of 46 RLF grants. Findings were mainly recommendations to
strengthening internal controls. The responses by the grantees are considered generally responsive to
the recommendations of the audit reports. All ARC RLF’s have now been currently audited. The RLF
program at ARC is now considered to be in good shape with excellent oversight.

       B.      INVESTIGATIONS

The Inspector General Act of 1978, as amended, provides that the IG may receive and investigate
complaints or information concerning the possible existence of an activity constituting a violation of
law, rules, or regulations; mismanagement; gross waste of funds; or abuse of authority. The OIG does
not employ criminal investigators. When the need has arisen, the matter would be referred to the
Federal Bureau of Investigation or assistance would be contracted with another Federal OIG. Also, the
results of investigations may be referred to the appropriate Federal, State, or local prospective authorities
for action.

As a result of preliminary results from the computer security review performed by the DHS OIG an
investigation was opened and certain personnel actions taken. The investigation should be completed
within the next reporting period.

IV.    OIG HOTLINE

A region wide toll-free hotline was previously established to enable direct and confidential contact with
the ARC OIG in line with governmental and longstanding OIG initiatives as identified in the IG Act of
1978 to afford opportunities for identification of areas subject to fraud, waste, or abuse. However,
contacts with the ARC OIG relative to public complaints or concerns continue to be primarily received
through ARC staff, on regular OIG phone lines, or from other OIG offices.

Also, numerous hotline calls were received with respect to matters for which other agencies have
jurisdiction. This resulted primarily from the ARC OIG hotline apparently being the first such OIG
listing in some telephone directories, resulting in ARC OIG being contacted by citizens who did not
know the appropriate agency for handling their concerns. The ARC OIG facilitated the complaint
process by identifying the applicable agency based on complainant information and providing the
correct OIG hotline number.



                                                     6
V.     LEGISLATIVE AND REGULATORY REVIEW

Primary efforts in this area continued to be related to potential legislative initiatives with respect to OIG
operations. The ARC OIG continues to support legislation that would provide improved protections for
IGs, including designated and career IGs, by consideration of alternatives such as removal for cause
criteria and term limits. Currently we are also reviewing the impact of OMB Circular A-136 on the
conduct of the annual financial statement audit.




                                                     7
                                                                                                                        APPENDIX A



      SCHEDULE OF AUDIT REPORTS ISSUED OCTOBER 1, 2006 TO MARCH 31, 2007




       Report                                 Entity and Title                                Program Dollars     Questioned/          Funds to Better
        No.                                                                                  or Contract/Grant    Unsupported             Use***
                                                                                                 Amount*            Costs**


      07-01        Financial Statement and Independent Audit


      07-02        Internal Control Review of Disbursement Procedures for ARC

      07-03        Internal Control Review of Administrative Functions on ARC


      TOTALS


*      Grant amounts reported are for ARC grant amounts and do not include matching funds.

**     A cost the Office of Inspector General has questioned because of an alleged violation of law, regulation, contract, or other agreements governing the
       expenditure of funds; such cost is not supported by adequate documentation; or the expenditure of funds for the intended purpose is unnecessary or
       unreasonable. Includes required matching contributions.
***    Funds the Office of Inspector General has identified in an audit recommendation that could be used more efficiently by reducing outlays, deobligating
       program or operational funds, avoiding unnecessary expenditures, or taking other efficiency measures, such as timely use of funds.




                                                                           8
                                                                   APPENDIX B

                      SCHEDULE OF AUDIT REPORTS WITH
                     QUESTIONED OR UNSUPPORTED COSTS
                               ($ in thousands)


                                           No. of     Questioned   Unsupported
                                           Reports       Costs        Costs

A.   For which no management decision          6     $ 677
     was made by the commencement of
     the reporting period

B.   Which were issued during the              0        $0             $ 0
     reporting period

     Subtotals (A + B)                         6        $ 677            $

C.   For which a management decision                                     $
     was made during the reporting
     period

     (i)      dollar value of disallowed       3     $ 203               $
              costs

     (ii)     dollar value of costs not        1     $ 34
              disallowed

D.   For which no management decision          3     $ 440              $0
     has been made by the end of the
     reporting period

E.   Reports for which no management           3     $ 440
     decision was made within 6 months
     of issuance




                                           9
                                                                             APPENDIX C

            SCHEDULE OF AUDIT REPORTS WITH
     RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                              No. of      Dollar Value
                                                              Reports   ($ in thousands)

A.   For which no management decision was made by the           3            $ 249
     commencement of the reporting period

B.   Which were issued during the reporting period               0           $0

     Subtotals (A + B)                                          3            $ 249

C.   For which a management decision was made during the         3           $ 249
     reporting period

     (i)      dollar value of recommendations that were         3            $ 249
              agreed to by management

              --based on proposed management action              -

              --based on proposed legislative action             -

     (ii)     dollar value of recommendations that were not     0           $0
              agreed to by management

D.   For which no management decision has been made by the      0           $0
     end of the reporting period


E.   Reports for which no final management decision was         0           $0
     made within 6 months of issuance




                                                  10
                                                                                         APPENDIX D

                                  DEFINITIONS OF TERMS USED


The following definitions apply to terms used in reporting audit statistics:


Questioned Cost                                      A cost which the Office of Inspector General (OIG)
                                      questioned because of an alleged violation of a provision of a law,
                                      regulation, contract, or other agreement or document governing the
                                      expenditure of funds; such cost is not supported by adequate
                                      documentation; or the expenditure of funds for the intended
                                      purpose is unnecessary or unreasonable.

Unsupported Cost                                   A cost which the OIG questioned because the cost
                                      was not supported by adequate documentation at the time of the
                                      audit.

Disallowed Cost                                      A questioned cost that management, in a
                                      management decision, has sustained or agreed should not be
                                      charged to the Commission.

Funds Be Put To Better Use                  A recommendation made by the OIG that funds could be
                                      used more efficiently if management took actions to implement
                                      and complete the recommendation.

Management Decision                          Management's evaluation of the findings and
                                      recommendations included in the audit report and the issuance of a
                                      final decision by management concerning its response to such
                                      findings and recommendations, including actions concluded to be
                                      necessary. Interim decisions and actions are not considered final
                                      management decisions for the purpose of the tables in this report.

Final Action                                                 The completion of all management actions
                                      that are described in a management decision with respect to audit
                                      findings and recommendations. If management concluded that no
                                      actions were necessary, final action occurs when a management
                                      decision is issued.




                                                    11
       THE OFFICE OF INSPECTOR GENERAL

      APPALACHIAN REGIONAL COMMISSION

                serves American taxpayers

     by investigating reports of waste, fraud, or abuse

                 involving Federal funds.


                If you believe an activity is

     wasteful, fraudulent, or abusive of Federal funds,

                        please call

                  toll free 1-800-532-4611

  or (202) 884-7667 in the Washington metropolitan area


                        or write to:


                Office of Inspector General

            Appalachian Regional Commission

         1666 Connecticut Avenue, NW, Rm 215

               Washington, DC 20009-1068


        Information can be provided anonymously.

Federal Government employees are protected from reprisal,

and anyone may have his or her identity held in confidence.
Appalachia as defined in the legislation, from which the Appalachia Regional Commission derives its authority, is a
200,000-square-mile region that follows the spine of the Appalachian Mountains from southern New York to
northern Mississippi. It includes all of West Virginia and parts of twelve other states: Alabama, Georgia, Kentucky,
Maryland, Mississippi, New York, North Carolina, Ohio, Pennsylvania, South Carolina, Tennessee, and Virginia.




                                     Appalachian Regional Commission

                                      Office of Inspector General
                                1666 Connecticut Avenue, NW, Suite 700
                                     Washington, DC 20009-1068
